                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          On January 16,2003, we received an anonymous complaint concerning an NSF proposal review
                  The Complainant alleges: (1) proposal review was completed mid-day on first day, but
          the Program ofice? instructed panelists to sign in on second day to get paid; (2) not all
          proposals were discussed by the panel; (3) NSF staff attempted to bias the panel by telling
          panelists that the proposals were poor; and for a specific proposal, panelists were encouraged to
          raise their rating.

          We reviewed panel records and interviewed the Program Officer. With regard to the first
          allegation, we determined that panel business was not complete on the first day. Although the
          panel discussion was complete in at least one subpanel, panel summaries remained to be written,
          and some panelists modified (or in some cases completed) their reviews. With regard to the
          second allegation, NSF does not require panels to discuss every proposal. With regard to the third
          allegation, the Program Officer stated that he characterized the proposals in terms of the ratings
          submitted by panelists prior to the panel. Panelists were asked to adjust their ratings afterwards to
          reflect discussion in the panel.


Il         We found the conduct of the panel to be within the range of acceptable practices articulated in
           the NSF Proposal and Award Manual and other guidance to program officers. Accordingly, this
           case is closed.




 NSF OIG Form 2 (1 1/02)

                                                                           /'
